                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              ALLEGED MISUSE OF FINANCIAL AND
                                              ADMINISTRATIVE TITLE V FUNDS BY
                                              THE NATIONAL CAUCUS AND CENTER
                                              ON BLACK AGED, INC.




                                                                Date Issued: March 30, 2007
                                                                Report Number: 21-07-002-03-360
U.S. Department of Labor                               March 2007
Office of Inspector General
Office of Audit                                        ALLEGED MISUSE OF FINANCIAL AND
                                                       ADMINISTRATIVE TITLE V FUNDS BY
BRIEFLY…                                               NCBA

Highlights of Report Number:                           WHAT OIG FOUND
21-07-002-03-360, to the Assistant                     •   $5,221 in government funds used for
Secretary for Employment and Training                      unauthorized travel expense claims;
                                                       •   $125,193 in government funds used to award
WHY READ THE REPORT                                        sole source contracts without proper
The Employment and Training Administration                 justification.
(ETA) Division of Older Worker Programs designs,       •   No evidence to substantiate that NCBA paid
develops, and administers the Senior Community             salaried employees while they worked for
Service Employment Program (SCSEP). Grants                 another company or while on a business
are awarded under this program to promote the              venture in Africa.
development of useful part-time employment             •   No onsite monitoring conducted by ETA to
opportunities in community service activities and          facilitate compliance with grant agreements
foster individual economic self-sufficiency to             and related grant requirements.
increase placement into unsubsidized
employment. The National Caucus and Center on
                                                       GRANTEE RESPONSE
Black Aged, Inc. (NCBA) is a direct recipient of the
SCSEP grant funds. For Program Year July 1,            In response to the draft report, NCBA generally
2004 – June 30, 2005, NCBA received                    disagreed with the report recommendations,
$15,309,169.                                           stating that the actions taken that resulted in
                                                       unallowable costs were justified. However, NCBA
WHY OIG DID THE AUDIT                                  officials acknowledged that they did not follow
                                                       applicable regulations in that they did not properly
The Office of Inspector General (OIG) conducted        document justification for, or obtain written
an audit of NCBA to determine if the specific          approvals prior to, incurring these costs. NCBA
allegations contained in a complaint could be          provided internal memorandums it has issued to
substantiated:                                         strengthen internal controls and operating
• Did NCBA inappropriately use government              procedures related to travel and procurement
    funds on car rentals for vacation/pleasure and     policies.
    to obtain extravagant hotel accommodations
    while in Tucson, Arizona and other cities,         WHAT OIG RECOMMENDED
    while traveling on behalf of NCBA?
                                                       We recommend that the Assistant Secretary for
•   Did the NCBA part-time Title V Director use        Employment and Training:
    NCBA operational funds ($30,000) to finance
    a computer program designed and                    •   Recover questioned travel costs of $5,221;
    implemented by his company? Is this a              •   Ensure that NCBA adheres to established
    conflict of interest?                                  criteria/regulations in the Code of Federal
•   Were salaried NCBA employees paid while                Regulations (CFR), NCBA Grant Agreement,
    working for another company at the same                and its own standard operating procedures
    time? Did at least two of these employees              (SOPs) with respect to travel policy and
    work on a business venture in Africa while on          procedures;
    the NCBA payroll? Did the part-time Title V        •   Recover questioned procurement costs of
    Director, who owns a computer company, use             $125,193;
    his employees as NCBA consultants and              •   Recover amounts paid for computer program
    NCBA staff?                                            maintenance that occurred after the audit
                                                           period ending June 30, 2005;
READ THE FULL REPORT                                   •   Ensure that NCBA adheres to established
                                                           criteria/regulations in the CFR, NCBA Grant
To view the report, including the scope,
                                                           Agreement, and SOPs with respect to
methodology, and full grantee response, go                 procuring products and services, thereby
to:                                                        avoiding conflicts of interest; and
http://www.oig.dol.gov/public/reports/oa/              •   Ensure that ETA conducts onsite monitoring.
2007/21-07-002-03-360
                                                                                  Alleged Misuse of Financial and
                                                                             Administrative Title V Funds by NCBA




Table of Contents
                                                                                                                     PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

NCBA inappropriately used government funds for travel while
in Tucson, Arizona ........................................................................................................ 8

NCBA issued sole source contracts to SMCI, the Quetzal Group,
and a Quetzal Group representative, without written justification,
and did not adhere to the competitive bid solicitation process.............................. 11

We found no evidence to substantiate that NCBA paid salaried
employees while they worked for another company at the same
time or while on a business venture in Africa .......................................................... 14

APPENDICES ............................................................................................................... 15

A.   Background............................................................................................................ 17
B.   Objective, Scope, Methodology, and Criteria...................................................... 19
C.   Procurement Questioned Costs ........................................................................... 23
D.   Acronyms and Abbreviations ............................................................................... 25
E.   Agency Response.................................................................................................. 27




U.S. Department of Labor - Office of Inspector General                                                                      1
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                      U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA



Executive Summary

We conducted a performance audit of the National Caucus and Center on Black Aged,
Inc. (NCBA) as a result of an anonymous complaint received by the Office of Inspector
General (OIG). NCBA currently operates the Senior Community Service Employment
Program (SCSEP) for the Department of Labor (DOL) in 10 states plus the District of
Columbia, 86 counties, and 2 cities. For Program Year (PY) 2004, NCBA received
SCSEP/DOL grant funds of $15,309,169.

Our audit objective was to determine if the specific allegations contained in the
complaint with respect to financial and administrative misuse of Title V funds could be
substantiated. Specifically, we analyzed the information provided by the complainant
and formulated three subobjectives:

       •   Did NCBA inappropriately use government funds on car rentals for
           vacation/pleasure, and to obtain extravagant hotel accommodations, while in
           Tucson, Arizona and other cities, while traveling on behalf of NCBA?

       •   Did the NCBA part-time Title V Director use NCBA operational funds
           ($30,000) to finance a computer program designed and implemented by his
           company? Is this a conflict of interest?

       •   Were salaried NCBA employees paid while working for another company at
           the same time? Did at least two of these employees work on a business
           venture in Africa while on the NCBA payroll? Did the part-time Title V
           Director, who owns a computer company, use his employees as NCBA
           consultants and NCBA staff?
Results
The OIG found that:

       •   NCBA inappropriately used government funds for travel. For PY 2004, NCBA
           was reimbursed $5,221 in travel expense claims that did not comply with the
           Federal Travel Regulation (FTR) requirements, NCBA Grant Agreement, and
           its own standard operating procedures (SOPs).

       •   NCBA funds were used to award a $38,000 sole source contract, without
           justification, for a computer program designed and implemented by Quetzal
           Group, Inc., a company owned by the part-time Title V Director. Two related
           contracts were also awarded sole source, without written justification, to the
           Quetzal Group and its parent company, Strategic Management Concepts, Inc.
           (SMCI). The relationship between the part-time Title V Director and these two
           companies constituted a conflict of interest, resulting in questioned costs
           totaling $125,193 for these three sole source contracts and related invoices,


U.S. Department of Labor - Office of Inspector General                                     3
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA

           as well as amounts paid under one of the contracts after our audit period
           ended.

       •   No evidence was identified to substantiate the allegation that NCBA paid
           salaried employees while they worked for another company or while on a
           business venture in Africa. The part-time Title V Director used his employees
           as consultants, but not as NCBA staff.

       •   No onsite monitoring of NCBA was conducted by the Employment and
           Training Administration (ETA) to facilitate compliance with the Grant
           Agreement and related grant requirements.

Grantee Response

NCBA generally disagreed with the report recommendations, stating that actions taken
which resulted in unallowable costs were justified. However, NCBA officials
acknowledged that they did not follow applicable regulations in that they did not properly
document justification for, or obtain written approvals prior to, incurring these costs.
NCBA provided internal memorandums it has issued to strengthen internal controls and
operating procedures related to travel and procurement policies.

We have attached the NCBA response to this report in its entirety as Appendix E.
Certain portions of NCBA’s response have been deleted because they contain personal
and confidential information which may not be releasable under the Freedom of
Information Act (5 U.S.C. 552).

OIG Conclusion

The NCBA response to the draft report did not provide additional information that
caused us to revise the findings and recommendations, with the exception of a reduced
amount for questioned meals and incidental expenses (M&IE) from $1,760 to $344.

All the recommendations will be resolved as part of the ETA audit resolution process.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

       •   Recover questioned travel costs of $5,221.

       •   Recover questioned procurement costs of $125,193.




4                                          U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA

       •   Recover amounts paid under one of the sole source contracts after the audit
           period ended June 30, 2005.

       •   Ensure that NCBA adheres to established criteria/regulations in the Code of
           Federal Regulations (CFR), the NCBA Grant Agreement, and its own SOPs
           with respect to:

           °   travel policy and procedures; and

           °   procuring products and services through the competitive bid process and
               avoiding conflicts of interest.

       •   Ensure onsite monitoring, whereby the ETA Federal representative conducts
           desk reviews and provides feedback to NCBA, to facilitate compliance with
           the Grant Agreement and related grant requirements.




U.S. Department of Labor - Office of Inspector General                                     5
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                      U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 21-07-002-03-360
                                                                  Alleged Misuse of Financial and
                                                             Administrative Title V Funds by NCBA



U.S. Department of Labor                            Office of Inspector General
                                                    Washington, DC 20210




                          Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary for
  Employment and Training
US Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

We conducted an audit of NCBA as a result of an anonymous complaint received by the
OIG. Our audit objective was to determine if the specific allegations contained in the
complaint with respect to financial and administrative misuse of Title V funds could be
substantiated:

       •   Did NCBA inappropriately use government funds on car rentals for
           vacation/pleasure and to obtain extravagant hotel accommodations while in
           Tucson, Arizona and other cities, while traveling on behalf of NCBA?

       •   Did the NCBA part-time Title V Director use NCBA operational funds
           ($30,000) to finance a computer program designed and implemented by his
           company? Is this a conflict of interest?

       •   Were salaried NCBA employees paid while working for another company at
           the same time? Did at least two of these employees work on a business
           venture in Africa while on the NCBA payroll? Did the part-time Title V
           Director, who owns a computer company, use his employees as NCBA
           consultants and NCBA staff?

We conducted the audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objective, scope, methodology, and
criteria are detailed in Appendix B.




U.S. Department of Labor - Office of Inspector General                                         7
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA


Allegation 1: Did NCBA inappropriately use government funds on car rentals for
vacation/pleasure, and to obtain extravagant hotel accommodations, while in
Tucson, Arizona and other cities, while traveling on behalf of NCBA?

The NCBA inappropriately used government funds for travel while in Tucson, Arizona.
Specifically, for PY 2004, NCBA staff was reimbursed $5,221 for travel expense claims
that did not comply with the requirements of the CFR, NCBA Grant Agreement, and its
own SOPs.

NCBA sponsored the SCSEP Training/Technical Assistance Conference in Tucson,
Arizona at the Hilton Tucson El Conquistador Golf and Tennis Resort, from
January 22 – 25, 2005, and 44 NCBA national and regional staff members, as well as
consultants, attended. While in attendance, NCBA:

    •   exceeded the maximum allowable lodging costs;
    •   did not adjust M&IE rates to reflect meals furnished as part of the conference;
        and
    •   obtained rental cars that were not justified.

Although NCBA had published SOPs that mirrored the CFR, staff was not aware of or
did not use the current version, causing NCBA to consistently miscalculate the M&IE
rate.

In addition, ETA officials did not monitor NCBA in accordance with guidelines, i.e., the
ETA Division of Older Workers’ Program (DOWP) SCSEP Handbook. ETA is
responsible for conducting general oversight of its grantee programs, including onsite
monitoring based on eight specific factors, including: when the grantees were last
monitored; significant changes in grantee staff; and delinquent submission of Quarterly
Progress Reports (QPRs). The Federal Project Officer (FPO) for NCBA is responsible
for determining whether the grantee complies with federal regulations. We determined
that NCBA met five of the eight factors, which should have prompted an oversight
inspection. The FPO was unable to provide any prior onsite monitoring reports and
stated that no onsite reviews had been performed due to a “lack of staff and travel
funds.” See Methodology on pages 19-20.

NCBA exceeded the maximum allowable lodging costs.

On January 22 – 25, 2005, 44 NCBA staff and consultants stayed at the Hilton Tucson
El Conquistador Golf and Tennis Resort and charged the grant $129 per night, $24 per
night more than the maximum allowable lodging cost of $105 per night plus applicable
taxes, resulting in questioned costs of $3,739. The NCBA Director for Policy



8                                           U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 21-07-002-03-360
                                                                           Alleged Misuse of Financial and
                                                                      Administrative Title V Funds by NCBA

Development made the hotel arrangements for Tucson and stated he was not aware of
the FTR per diem rates.

The FTR at 41 CFR 301-11.100 states, “When travel is more than 12 hours and
overnight lodging is required, you are reimbursed your actual lodging cost, not to
exceed the maximum lodging rate for the [temporary duty] TDY location or stopover
point.”

NCBA did not adjust M&IE rates to reflect meals furnished as part of the
training conference.

On January 24, 2005, all conference participants were furnished breakfast, lunch, and
dinner. However, NCBA staff did not deduct the expenses for these meals on their
travel vouchers, resulting in questioned costs of $344.1 NCBA had published SOPs that
mirrored the CFR, but staff did not follow them.

The FTR at 41 CFR 301-11.18 states, in part:

        Your M&IE rate must be adjusted for a meal(s) furnished to you (except as
        provided in §301-11.17), with or without cost, by deducting the appropriate
        amount shown in the chart in this section for CONUS travel, reference
        Appendix B of this chapter for CONUS travel, or any method determined
        by your agency. . . .


NCBA obtained rental vehicles that were not appropriately justified.

NCBA improperly charged the grant for the cost of two rental vehicles used by staff at
the conference. These two vehicles were in addition to one vehicle NCBA had rented to
transport equipment and staff to and from the airport. Because the conference was held
at the hotel where NCBA staff stayed, no legitimate need existed for these two
additional vehicles. Therefore, we question costs of $1,138, the amount paid for two
additional rental vehicles, which included costs for damage waivers and liability
insurance that are not allowable.

The FTR at 41 CFR 301-10.450 states: “Your agency must determine that use of a
rental vehicle is advantageous to the government and must specifically authorize such
use.”



1
  According to NCBA travel expense vouchers, the agency paid M&IE on January 24, 2005. On January 25, 2005,
NCBA did not pay the 75 percent M&IE for staff returning from the travel destination. This reduced the amount of
the travel overpayment by $1,416. As such, the total questioned travel costs is reduced from $6,755 to $5,221, and
questioned travel costs for M&IE is reduced from $1,760 to $344.


U.S. Department of Labor - Office of Inspector General                                                           9
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA

The FTR at 41 CFR 301-10.451 states: “You will not be reimbursed for [collision
damage waiver] CDW or theft insurance for travel within CONUS. . . .”

Grantee Response

NCBA stated that it compared prices of three hotels in Tucson and determined that the
Hilton provided the lowest overall costs, thereby offsetting the total difference between
the actual room charges and the allowed CONUS rates. NCBA also provided meals to
the staff on January 24, 2005; therefore, NCBA staff did not receive per diem for that
day. Regarding M&IE, NCBA staff used the old quarter basis of reimbursement for the
first and last days of travel instead of the 75 percent rule; staff was reminded to
constantly monitor changes in travel regulations. Finally, NCBA stated that it evaluated
the number of cars needed and costs of using other methods of transportation, such as
taxi or bus, and determined three rental vehicles were required. Based on the
recommendation of NCBA’s insurance company, employees are required to accept loss
damage waiver (LDW) coverage on rental vehicles. NCBA provided an internal
memorandum it has issued to strengthen internal controls and operating procedures
related to travel policies.


OIG Conclusion

The NCBA response did not provide additional information that caused us to revise the
findings and recommendations, with the exception of a reduced amount for questioned
meals and incidental expenses (M&IE) from $1,760 to $344. Further, NCBA’s policy to
take LDW coverage on rental vehicles conflicts with the FTR, which disallows such
coverage. All the recommendations will be resolved as part of the ETA audit resolution
process.



Recommendations

We recommend that the Assistant Secretary for Employment and Training:

•    Recover questioned travel costs of $5,221.

•    Ensure that NCBA adheres to established criteria/regulations found in the CFR,
     NCBA Grant Agreement, and its own SOPs with respect to travel policy and
     procedures.

•    Ensure onsite monitoring, whereby the ETA federal representative conducts desk
     reviews and provides feedback to program operators, to facilitate compliance with
     the Grant Agreement and related grant requirements.


10                                          U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA

Allegation 2: Did the NCBA part-time Title V Director use NCBA operational funds
($30,000) to finance a computer program designed and implemented by his
company? Is this a conflict of interest?

NCBA funds were used to award a $38,000 sole source contract, without written
justification, for a computer program designed and implemented by the part-time Title V
Director’s company, the Quetzal Group, Inc. The part-time Title V Director’s affiliation
with the Quetzal Group, Inc., and his involvement in its selection as a contractor,
constituted a conflict of interest. We also identified two related contracts that were
awarded sole source, without written justification, to a Quetzal Group representative and
its parent company, SMCI, as well as questionable invoices. As a result, we question
costs of $125,193 for these three sole source contracts, invoices, as well as amounts
paid after our audit period ended for one of the above contracts. Details follow.

The part-time Title V Director was not an employee of NCBA but, instead, was the
president of SMCI, and hired by NCBA as a consultant, via a sole source contract
without written justification, for $67,978. The contract was for consulting services on an
in-house basis from May 1, 2004 to April 30, 2005. The part-time Title V Director
subsequently made recommendations for two additional sole source contracts between
NCBA and the Quetzal Group, a wholly owned subsidiary of SMCI, as explained below.

   •   In January 2005, NCBA awarded a sole source contract for $38,000 to the
       Quetzal Group for the period January 1, 2005 – April 30, 2005, to create a web-
       based computer program to improve the QPR process. The NCBA President
       stated that the Quetzal Group contract was awarded based on the part-time
       Title V Director’s recommendation. The NCBA President did not follow the CFR
       or NCBA SOPs with regard to the competitive bid solicitation process or written
       justification for lack of competitive bids; therefore, we question the $38,000
       contract amount.

   •   NCBA awarded to a Quetzal Group representative, without justification, a sole
       source open-ended contract that started April 29, 2005 to maintain the web-
       based computer program the Quetzal Group had developed. At any point, with
       2 weeks notice, either party could terminate the agreement. The NCBA
       President stated that this contract was also awarded based on the part-time
       Title V Director’s recommendation. Again, the NCBA President did not follow the
       CFR or NCBA SOPs with regard to the competitive bid solicitation process or
       written justification for lack of competitive bids; therefore, we question the
       $10,050 paid through June 30, 2005, the end of the audit period, plus any
       subsequent amounts paid.

Moreover, three SMCI invoices totaling $9,165 and billed to NCBA for the initial
contract--the part-time Title V Directors consulting work--were for work performed
outside the contract scope. To explain, the first invoice for $1,705 was submitted on
SMCI letterhead for information technology support services performed in January 2005
by a Quetzal Group representative. However, the Quetzal Group billed $12,000 for

U.S. Department of Labor - Office of Inspector General                                    11
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA

similar work performed during this period under the second contract. A second SMCI
invoice for $5,500 was for worked performed from July to October 2004 for “pre-
assessment for a web-based application.” This work was within the scope of the
second contract with the Quetzal Group that was awarded in January 2005, but was
outside the scope of the initial contract, and the SMCI had already billed NCBA for the
part-time Title V Director’s monthly consulting fee of $5,600 for the same period. A
third, partial invoice for $1,960 was for planning meetings and parking costs that were
incurred in May 2005, after the initial contract performance period had expired.
Therefore, we question the $9,165 charged to NCBA for these three invoices.

29 CFR, 95.46 states, in part:

       Procurement records and files for purchases in excess of the small
       purchase threshold shall include the following at a minimum: (a) basis for
       contractor selection, (b) justification for lack of competition when
       competitive bids or offers are not obtained, and (c) basis for award cost or
       price.

The NCBA had SOPs in place that mirrored the CFR, but NCBA did not adhere to the
open competitive bid solicitation process or justify its noncompetitive selection, resulting
in a violation of the CFR and NCBA SOPs. We question the contract amount of
$125,193.

29 CFR 95 states, in part:

       The recipient shall maintain written standards of conduct governing the
       performance of its employees engaged in the award and administration of
       contracts. No employee, officer, or agent shall participate in the selection,
       award, or administration of a contract supported by Federal funds if a real
       or apparent conflict of interest would be involved. Such a conflict would
       arise when the employee, officer, or agent, any member of his or her
       immediate family, his or her partner, or an organization which employs or
       is about to employ any of the parties indicated herein, has a financial or
       other interest in the firm selected for an award . . .

       All procurement transactions shall be conducted in a manner to provide, to
       the maximum extent practical, open and free competition. The recipient
       shall be alert to organizational conflicts of interest as well as
       noncompetitive practices among contractors that may restrict or eliminate
       competition or otherwise restrain trade. . . .

As was the case with the travel allegations, the ETA FPO conducted little or no
monitoring of NCBA over the last 3 years. According to the ETA DOWP SCSEP
Handbook, ETA is responsible for conducting general oversight of its grantee programs,
including monitoring. See Methodology on pages 19-20.


12                                          U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA


Grantee Response

NCBA disagreed with our conclusion regarding unjustified sole source contracting
actions that resulted in a conflict of interest. NCBA stated that, because of significant
personnel changes within its senior management structure in recent years and difficulty
in developing a database system, NCBA fashioned contracts it believed were cost-
effective and provided maximum flexibility. As such, NCBA considered its actions
prudent. However, NCBA officials stated that, in the future, they will ensure that
justification is properly documented and maintained in the file. NCBA provided an
internal memorandum it has issued to strengthen internal controls and operating
procedures related to procurement policies.

NCBA disagreed with questioned costs for two invoices ($1,705 and $5,500) for work
performed on the old database to correct numerous errors and for manual
synchronization processes to match the NCBA database with the DOL database. As
such, the $12,000 billed by Quetzal relates to the new database and has no relationship
with the old database. NCBA further stated that the partial invoice of $1,960 relates to
one week of service after the expiration of the contract and was necessary for the SMCI
head to orient the staff as to where various SCSEP matters stood, and to finish any
outstanding tasks to ensure smooth exit/transition.

OIG Conclusion

The NCBA response did not provide additional information to cause us to revise the
findings and recommendations that contracts were awarded sole-source, without written
justification, and related invoices were for work performed outside the contract scope.
All the recommendations will be resolved as part of the ETA audit resolution process.


Recommendations

We recommend that the Assistant Secretary for Employment and Training:

         •   Recover questioned procurement costs of $125,193.

         •   Recover amounts paid under one of the questioned sole source contracts
             that occurred subsequent to our audit period ended June 30, 2005.

         •   Ensure that NCBA adheres to established criteria in the CFR, NCBA Grant
             Agreement, and its own SOPs, with regard to procuring products and
             services through the competitive bid process and avoiding conflicts of
             interest.




U.S. Department of Labor - Office of Inspector General                                    13
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA


Allegation 3: Were salaried NCBA employees paid while working for another
company at the same time? Did at least two of these employees work on a
business venture in Africa while on the NCBA payroll? Did the part-time Title V
Director, who owns a computer company, use his employees as NCBA
consultants and NCBA staff?

We found no evidence to substantiate that NCBA paid salaried employees while they
worked for another company or while on a business venture in Africa. Furthermore, the
part-time Title V Director used his employees as consultants but not as NCBA staff.

The part-time Title V Director made travel arrangements for two newly hired NCBA staff
who accompanied him on several trips relating to NCBA business. He paid for their
travel on his credit card and was reimbursed by NCBA for staff travel on his travel
voucher. Our audit confirmed through interviews with NCBA staff that these two newly
hired staff were unaware of the travel procedures and that this lack of knowledge
contributed to the part-time Title V Director booking travel for the staff. This
arrangement may have had the appearance that NCBA staff worked for the part-time
Title V Director instead of the NCBA.

The part-time Title V Director visited Africa during November 2004 for personal reasons
and not for NCBA business. NCBA senior management was aware of his planned trip
to Africa, and the part-time Title V Director’s contract agreement did not specifically
state hours required to obtain his fixed monthly contract fee of $5,600. As a result, the
contract agreement was not violated due to his trip to Africa. We found no evidence to
substantiate that NCBA staff traveled to Africa for NCBA-related business. We also
found no evidence of the part-time Title V Director or his staff being on the NCBA
payroll.


Grantee Response

NCBA provided no comments on this unsubstantiated allegation.

OIG Conclusion

We made no recommendations on this unsubstantiated allegation.




Elliot P. Lewis
August 5, 2005



14                                         U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




Appendices




U.S. Department of Labor - Office of Inspector General                                    15
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                     U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 21-07-002-03-360
                                                               Alleged Misuse of Financial and
                                                          Administrative Title V Funds by NCBA


                                                                               APPENDIX A
BACKGROUND
NCBA is a national grantee that has promoted effective leadership in making minority
participation in aging services a national issue and priority for 34 years. NCBA operates
various programs, with the most notable being SCSEP under Title V of the Older
Americans Act (OAA). The NCBA mission is to improve the quality of life for elderly African
Americans and other minorities.

NCBA has operated the SCSEP for 25 years, promoting and emphasizing the development
of useful part-time employment opportunities in community service activities for
unemployed low-income persons, and fostering individual economic self-sufficiency to
increase the number of persons who may enjoy the benefits of unsubsidized employment.
Community service entails social, health, welfare, and educational services (particularly
literacy tutoring), legal and other counseling services and assistance, including tax and
financial counseling, library, recreational, and other similar services essential and
necessary to the community as the Secretary of Labor, by regulation, may prescribe.

NCBA/SCSEP collaborates with 17 Workforce Boards/One-Stop Centers whose
jurisdictions cover the authorized counties in which NCBA/SCSEP operates. NCBA
coordinates with all area agencies on aging and all state units on aging whose jurisdictions
cover the authorized counties in which it operates.

It should also be noted that the PY 2004 appropriation for Title V of the OAA was
$438,650,000. This funding was used to support over 61,323 authorized SCSEP
community service positions, and resulted in approximately 85,852 people being served
during the program year beginning July 1, 2004. National sponsors accounted for
$329,579,010 and 46,069 of those positions.

NCBA is a direct recipient of the Title V of the OAA SCSEP/DOL grant funds, receiving
$15,309,169 for PY July 1, 2004 – June 30, 2005.




U.S. Department of Labor - Office of Inspector General                                     17
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                                Alleged Misuse of Financial and
                                                           Administrative Title V Funds by NCBA


                                                                                APPENDIX B

OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our audit objective was to determine if the following specific allegations contained in the
complaint with respect to financial and administrative misuse of Title V funds could be
substantiated:

•   Did NCBA inappropriately use government funds on car rentals for vacation/pleasure,
    and to obtain extravagant hotel accommodations, while in Tucson, Arizona, and other
    cities, while traveling on behalf of NCBA?

•   Did the NCBA part-time Title V Director use NCBA operational funds ($30,000) to
    finance a computer program designed and implemented by his company? Is this a
    conflict of interest?

•   Were salaried NCBA employees paid while working for another company? Did at least
    two of these employees work on a business venture in Africa while on NCBA payroll?
    Did the part-time Title V Director, who owns a computer company, use his employees
    as NCBA consultants and NCBA staff?

Scope

Onsite fieldwork was conducted from July 1 through August 5, 2005, at the NCBA national
office in Washington, DC. The audit covered the grant award period, PY July 1, 2004
through June 30, 2005. We audited NCBA staff and consultant travel and contract
expenditures of $189,392.32, and we questioned costs of $130,414.

Methodology

The audit was performed in accordance with Generally Accepted Government Auditing
Standards issued by the Comptroller General of the United States.

The methodology included addressing the allegations and surrounding circumstances. Our
review focused on travel and NCBA procedures and controls over travel and contract
procurement. Travel vouchers reviewed consisted of two trips to other cities, and the
remaining was for the Arizona conference. Staff processes included personnel files,
payrolls, contract agreements, and invoices. We interviewed key NCBA officials and the
related Federal representative for this national grantee, as necessary, to document the

U.S. Department of Labor - Office of Inspector General                                        19
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA



roles and responsibilities and the controls involved in the areas of administrative and
standard operating procedures. We reviewed costs, as they related to the allegations, to
ensure that they were allowable and in compliance with applicable Federal, program, and
grant requirements.

Travel:    100 percent of NCBA national office travel vouchers for the Arizona conference
           during PY July 1, 2004 – June 30, 2005 to ensure compliance with Federal laws,
           regulations and agency policies and procedures.

Staff:     Personnel and payroll documentation, contract agreements and invoices to
           determine if NCBA contractors were by contract agreement amounts and/or
           through the NCBA payroll.

We reviewed ETA monitoring processes and internal controls, as they related to the
allegations, to determine effectiveness and reliability for providing reasonable assurance
that the travel and staff processes complied with applicable laws and regulations. We
applied DOL/ETA, DOWP guidelines in making our assessment. These guidelines,
contained within the DOWP SCSEP Handbook, list eight specific factors/circumstances that
would prompt the FPO to perform onsite monitoring. The eight criteria represent a
component of the Department’s internal control, as the discovery of problems identified by
these eight criteria would prompt hands-on oversight by the Department. The eight criteria
and the five (in bold) we determined that should have triggered onsite monitoring, are as
follows:

              •   Date the grant was last monitored;
              •   Allegations of possible abuse;
              •   Poor program performance;
              •   Significant changes in grantee staff;
              •   Delinquent or inaccurate submittal of reports and responses to other
                  requirements (e.g., monitoring reports, audits, and performance
                  assessments);
              •   Serious administrative deficiencies identified in previous monitoring
                  reports, audit reports, and quarterly desk reviews;
              •   Negative audit determinations; and
              •   Need for technical assistance.

Criteria

OAA - Enacted as Public Law 89-73 on July 14, 1965; amended on September 30, 1992.
Currently being reauthorized.
Office of Management and Budget Circulars:
    • A-122 - Cost Principles for Non-profit Organizations (for use by nonprofit grantees)
    • A-133 - Single Audit Act (for use by SCSEP grantees)


20                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA


29 CFR Part 95 - Grants and Agreements with Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations, and with Commercial Organizations, Foreign
Governments, Organizations Under the Jurisdiction of Foreign Governments, and
International Organizations

29 CFR Part 97 - Uniform Administrative Requirement for Grants and Cooperative
Agreements to State and Local Governments

41 CFR Part 301 (FTR) - TDY Travel Allowances

SCSEP Implementing Regulations (20 CFR Part 641) issued in the Federal Register on
April 9, 2004

SCSEP Handbook




U.S. Department of Labor - Office of Inspector General                                    21
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                                         Alleged Misuse of Financial and
                                                                    Administrative Title V Funds by NCBA


                                                                                            APPENDIX C
PROCUREMENT QUESTIONED COSTS


                                       Procurement Questioned
                                               Costs

      Contractor      Amount          Description of Work Performed                    Period of Performance


#1        SMCI          $67,978    The initial contract with SMCI was for             May 1, 2004 - April 30, 2005
                                   consultation support services on an in-house
                                   basis, awarded as a sole source contract,
                                   without written justification.


#2   Quetzal Group      $38,000    The second contract with the Quetzal Group,        January 1, 2005 - April 30, 2005
                                   Inc., was for the creation of a web-based
                                   computer program, awarded as a sole
                                   sourced contract, without written justification.


#3   Quetzal Group      $10,050    The third contract with a representative of the    April 29, 2005 - Post review
     Representative                Quetzal Group, Inc., to maintain the web-          period
                                   based program developed by the
                                   representative, was awarded a sole source
                                   contract, without written justification.


#4         SMCI           $5,500   Pre-assessment work for the web-based              July, August, October 2004
        (Invoices)                 application/data scrubbing (150 hours)


                          $1,705   IT Support                                         January 2005


                          $1,960   Planning Meeting & Parking                         May 2-11, 2005


     Total Billed     $125,193




U.S. Department of Labor - Office of Inspector General                                                     23
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA


                                                                              APPENDIX D
ACRONYMS AND ABBREVIATIONS

CFR            Code of Federal Regulations
CONUS          Continental United States
DOL            Department of Labor
DOWP           Division of Older Worker Programs
ETA            Employment and Training Administration
FPO            Federal Project Officer
FTR            Federal Travel Regulations
M&IE           Meals and Incidental Expenses
NCBA           National Caucus and Center on Black Aged, Inc.
OAA            Older Americans Act
OIG            Office of Inspector General
PY             Program Year
QPR            Quarterly Progress Report
SCSEP          Senior Community Service Employment Program
SMCI           Strategic Management Concepts, Inc.
SOPs           Standard Operating Procedures
TDY            Temporary Duty




U.S. Department of Labor - Office of Inspector General                                    25
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA


                                                                              APPENDIX E
GRANTEE RESPONSE




U.S. Department of Labor - Office of Inspector General                                    27
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




28                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    29
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




30                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    31
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




32                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    33
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




34                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    35
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




36                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    37
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




38                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    39
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




40                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    41
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




42                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    43
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




44                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    45
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




46                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    47
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




48                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    49
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




50                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    51
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




52                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    53
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




54                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    55
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




56                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    57
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




58                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    59
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




60                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    61
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




62                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    63
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




64                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    65
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




66                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    67
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




68                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    69
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




70                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    71
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




72                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    73
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




74                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    75
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




76                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    77
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




78                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    79
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




80                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    81
Report Number: 21-07-002-03-360
Alleged Misuse of Financial and
Administrative Title V Funds by NCBA




82                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 21-07-002-03-360
                                                              Alleged Misuse of Financial and
                                                         Administrative Title V Funds by NCBA




U.S. Department of Labor - Office of Inspector General                                    83
Report Number: 21-07-002-03-360
